No. 19-123
In the

Supreme Court of the United States
__________________

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

__________________
BRIEF OF AMICI CURIAE FORMER FOSTER
CHILDREN AND FOSTER PARENTS AND
THE CATHOLIC ASSOCIATION FOUNDATION
IN SUPPORT OF PETITIONERS
__________________
Andrea Picciotti-Bayer
Counsel of Record
The Catholic Association Foundation
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION AND
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . 16
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
I.

CSS CONTRIBUTES TO THE DIVERSITY
OF PHILADELPHIA’S FOSTER FAMILIES
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

II.

CSS HAS A PROVEN TRACK RECORD OF
RELIABLE FOSTER CARE . . . . . . . . . . . . . 20

III.

CSS SUPPORTS PERMANENT HOMES
FOR NEEDY CHILDREN . . . . . . . . . . . . . . 22

IV.

CSS POLICY DOES NOT INTERFERE
WITH THE INTERESTS OF SAME-SEX
COUPLES . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

V.

THIS
CASE
HAS
NATIONAL
SIGNIFICANCE . . . . . . . . . . . . . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

ii
TABLE OF AUTHORITIES
CASES
Buck v. Gordon,
No. 1:19-cv-00286 (W.D. Mich.) available at
https://s3.amazonaws.com/becketnewsite/
Complaint-in-Buck-v.-Gordon.pdf . . . . . . . . . . . 24
Dumont v. Gordon,
No. 2:17-cv-13080-PDB-EAS (E.D. Mich. 2019)
(Stipulation of Voluntary Dismissal with
Prejudice) available at https://s3.amazonaws.
com / becket new s i t e / D u m o n t-St i pul at edDismissal-and-Settlement-Agreement.pdf . . . . 24
Sharonell Fulton, et. al v. City of Philadelphia,
slip op. (3rd Cir. Nov. 6, 2017) . . . . . . . . . . . passim
OTHER AUTHORITIES
After 95 years, NY rules end Catholic adoption and
foster services in Buffalo, Catholic News Agency,
Aug.
27,
2018
available
at
https://www.catholicnewsagency.com/news/after95-years-ny-rules-end-catholic-adoption-andfoster-services-in-buffalo-60894 . . . . . . . . . . . . . 24
American Academy of Pediatrics, “Helping Foster
and Adoptive Families Cope with Trauma,”
available at https://www.aap.org/en-us/advocacyand-policy/aap-health- initiatives/healthy-fostercare-america/Documents/Guide.pdf . . . . . . . . . . 19
https://www.phila.gov/services/birth-marriage-lifeevents/become-a-foster-parent/ . . . . . . . . . . . . . 16

iii
Terruso, Julia “Philly puts out ‘urgent’ call – 300
families needed for fostering,” The Philadelphia
Inquirer (March 8, 2018) available at
https://www.inquirer.com/philly/news/fosterparents-dhs-philly-child-welfare-adoptions20180308.html . . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States Conference of Catholic Bishops,
“Discrimination against Catholic Adoption
Services,” available at http://www.usccb.org/
issues-and-action/religious-liberty/discriminationagainst-catholic-adoption-services.cfm . . . . . . . . 23
U.S. Department of Health and Human Services,
Administration for Children and Families,
“Children’s Bureau Express,” Nov. 2016, Vol. 17,
No. 8. available at
https://cbexpress.acf.
hhs.gov/index.cfm?event=website.viewArticles
&issueid=181 &articleid. . . . . . . . . . . . . . . . . . . 16
U.S. Dep’t of Health and Human Services,
Administration for Children and Families, “The
AFCARS
Report”
available
at
https://www.acf.hhs.gov/sites/default/files/cb/af
carsreport25.pdf . . . . . . . . . . . . . . . . . . . . . . . . . 16

1
INTEREST OF AMICI CURIAE1
Amici former foster children and foster parents
served by Catholic Social Services (“CSS”) in
Philadelphia, Pennsylvania, listed and described below,
attest to the dignified placement and support that CSS
has provided to foster children and foster families.
Amici, The Catholic Association Foundation (TCA),
is a lay organization dedicated to being a faithful voice
for Catholics in the public square. The Catholic church
and Catholics have played a leading role in founding
and running foster care placement agencies across the
United States. Many Catholics who foster children
consider doing so an important part of living out their
Christian vocation.
Amici strongly oppose the City of Philadelphia’s
decision to freeze intake referrals of foster children to
CSS and its imposition of unconstitutional conditions
on future referrals that risks CSS shuttering the doors
of its foster care program.

1

Pursuant to Rule 37.2, all parties received timely notice of the
intention to file this amicus brief and consented to its filing.
Consistent with Rule 37.6, no counsel for a party authored this
brief in whole or in part. The Catholic Association Foundation
contributed the costs associated with the preparation and
submission of this brief. All statements made by amici former
foster children and foster parents are on file with counsel for amici
curiae.

2
WAYNE THOMAS was the answer to three-year-old
Brittany’s prayer over twenty-five years ago.
Brittany, the grandchild of Sharonell Fulton, one of
the Petitioners, prayed for someone to play with as she
watched the children at the Our Lady of Victory
Catholic School playground across from the Fulton
house. At the same time, Wayne and his brother Sean
were living in a dilapidated house with a drug-addicted
uncle and aunt who fought viciously. During one fight,
the boys’ uncle mistakenly threw boiling water on the
boys. Wayne thinks a neighbor called the police after
hearing the cries. An ambulance was soon rushing the
boys (age 5 and 7) to the hospital for medical
treatment.
Upon their discharge, CSS placed Wayne and Sean
with Ms. Fulton. Wayne stayed with Brittany and her
younger siblings in the Fulton home until he was 19
years old. Wayne and his brother consider Brittany and
Ms. Fulton’s other two grandchildren their siblings.
And Ms. Fulton? Wayne calls her “Meme.” Meme “did
not treat us any different than her own,” says Wayne
today. “What was theirs was ours.”
Now 31, Wayne was one of his biological mother’s
twelve children. She struggled with drug addiction and
was incarcerated during much of Wayne’s early
childhood. “Meme was like a mother to me,” says
Wayne. Although Wayne’s father also battled addiction
to drugs, he was a more constant presence in Wayne’s
life, thanks to Meme and CSS. They arranged for the
boys’ visits with their father and other siblings, halfsiblings and extended relatives. After Wayne’s parents

3
were “clean”, they would visit more frequently and even
join in birthday celebrations at Meme’s house.
Meme never sought to adopt the boys. “She believed
that since we had parents, she was there to help in any
way she could to keep us connected to them,” Wayne
said. “But at the same time, she would not let anything
bad ever happen to us.” Even though Wayne’s parents
were able to get back on their feet eventually, Wayne
and Sean felt that Ms. Fulton’s home was their home.
Says Wayne, “I was happy with Meme.”
He credits Meme and CSS for his success in life.
While an Our Lady of Victory Catholic School sixth
grader, Wayne represented the school at the World
Youth Day in Germany in 2005—an honor Meme talks
about to this day. After graduating from middle school,
Wayne went on to study at Mercy Career and Technical
School -- a private, Catholic vocational training high
school. After this, Wayne accepted a job as an HVAC
technician at the same company he has worked at for
the past 12 years. “I look at my life and the lives of my
other siblings who did not go to foster care,” he says. “I
think that my life is better because of what foster care
gave me.”
Meme opened her home to other foster children over
the years. Wayne remembers that Meme and Wayne
would plant a tree whenever a new foster child came to
live with them. “She said that the tree represented new
growth, new opportunities,” says Wayne. “Now when I
visit Meme’s home, I see those trees. I think about my
life – still growing, still thriving.”

4
What will happen if CSS is forced to close its doors?
“Everything I went through that involved them gave
me so much hope,” he says. “All the workers we had
that helped us were great. They bring a positive respect
to upcoming foster children that need their help. And
mothers who want to foster will lose a great agency.”
THOMAS PAUL believes he was raised by a saint.
Thomas was one of more than 100 foster children
that Cecila Paul, one of the original plaintiffs2, received
into her home. Thomas came to live with the Pauls
when he was a newborn. His biological parents were
involved, as Thomas says today, “in some bad stuff.”
CSS placed him and his older brother Andrew (known
as Drew), only a year his senior, into foster care with
the Pauls, and the Pauls later adopted both boys.
Although the two boys later made contact with their
biological parents, Thomas and Drew both consider Ms.
Paul to be the only mother they ever knew. Says
Thomas, “I think that whoever raised you is your
parent.”
Thomas met many other foster children who were
placed with the Pauls. Like Thomas, many had
suffered abuse or abandonment. It was hard when kids
he got used to left. “I have seen so much in my life that
is sad,” he says, but “joy overcomes all of the pain in my
life.”

2

Ms. Paul, who had been widowed years earlier, died during the
pendency of this action. Her positive influence in Thomas’ life was
specifically acknowledged by the panel. See Sharonell Fulton, et.
al v. City of Philadelphia, slip op. at 20 n. 3 (3rd Cir. Nov. 6, 2017).

5
Thomas is grateful to CSS for its unceasing support
of Ms. Paul and foster children like him. He remembers
feeling special when CSS sent presents at Christmas.
The attention “helped him to keep his mind off any of
the hard times.” He adds that CSS visits and
assessments always helped “get kids out of their
darkness.”
Growing up in Ms. Paul’s house prepared Thomas
for life. She encouraged him to “work hard, focus and
do what you like.” Today, he’s 33 years old, a general
contractor and the father of two children, aged six and
one. He credits the support he found at the Paul home
for his success in life. He remembers Ms. Paul teaching
him that, “No matter how hard life comes at you, keep
going, keep your head up.”
As a father of two young children, he looked to Ms.
Paul for advice and support in parenting. “She handles
kids, those with emotional problems – so well.” He also
believes that having been adopted after foster care has
helped him to be a better father. It has inspired
Thomas to “give something to my own children that I
did not get from my biological parents.”
The most important gift he received as a child was
love. “Love is everything,” says Thomas. “It goes a long
way if you feel special – to know that someone actually
wanted you.” Being wanted by someone like Ms. Paul
– someone with “the biggest heart I know” – helped
him cope with having been abandoned as a baby. The
bottom line for Thomas: “I feel ... joy overcomes all of
the pain in my life.”

6
Thomas thinks that the possibility of CSS shutting
down its foster care program – a program that has done
so much for him – is horrible. “I want other kids to
have the opportunity that I did,” he says. “If they get
shattered by situations that are not their fault, they
should still have the chance to dream.”
KAREN QUINN has been a CSS-certified foster
mother for 30 years. She “lost count” of how many
foster children she and her husband have cared for over
three decades, but thinks the number is “well over 30.”
Of these children, Karen and her husband have
adopted 5 and are legal guardians to one other.
Karen started caring for foster children after
reading a request in her parish bulletin for long-term
foster care providers for a needy child – Jamie. Jamie
was 4 years old and at 7 years old was adopted by the
Quinns.
The next two children who came to her home were
Debby (2 years old) and Gus (8 years old). The two
siblings stayed with the Quinns for 13 months. Karen
remembers picking the young children up at the CSS
office: “Gus was a skinny little boy, and Debby had a
very sad face. Her eyes were not alive when we got
her.” After just a few months in the Quinn home,
however, Karen noticed that Debby’s eyes “lit up.”
According to Karen, seeing the positive effect of a
stable foster home on Debby, “is why I kept doing it for
so long.”
Karen has cared for many babies over 30 years.
Monika was born with cocaine in her system and spent
her first year of life in Karen’s care. She then returned

7
to live with her biological father but continued to see
the Quinns at holidays and during the summer. Her
father contacted Karen when Monika was 6, asking if
she could live at Karen’s again. Karen and her husband
agreed to welcome Monika back home, this time as the
child’s legal guardians. Now 25 years old, Monika lives
only 10 minutes away from Karen and she is working
toward her associate degree at the local community
college.
Karen credits CSS for its unstinting commitment to
supporting her as a foster parent. When placing a child
in her home, CSS “gave every bit of information they
had about the child. Often they were more responsive
than the DHS social worker assigned.” “Any question
you had that you couldn’t solve yourself,” Karen says,
“you could ask” the people at CSS.
CSS’ contact with Karen and her foster children
went far beyond monthly home visits. “Most of the kids
came with very little clothing – especially if they were
a brand-new baby,” but CSS would ask what Karen
needed and either help supply additional clothing or
provide an allowance. If Karen missed CSS-sponsored
Christmas parties, the agency never forgot to send a
gift for both the foster child and Karen’s now-adopted
children.
DHS regulations for foster care have changed over
the past 30 years, but CSS case workers always made
sure that Karen knew of the changes and was in
compliance. Karen also notes that because of CSS’
extended network of programs, both foster children and
biological parents get referrals for care and services
that other agencies can’t provide. For example, when

8
one of Karen’s foster children needed special care -- like
behavioral supports for former foster children Gus and
Lauren -- CSS coordinated therapy without delay –
“they were not put on a waiting list,” says Karen.
Karen and her husband are committed to helping
all of their foster children maintain healthy
relationships with siblings, parents and other relatives.
One foster son, Gabriel, came to Karen’s home when he
was only 9 months old. Karen learned that Gabriel had
two siblings living in foster care in Ocean City, New
Jersey where Karen’s family visited on summer
vacations. Karen coordinated with the foster parent in
Ocean City so that the siblings could spend time with
their baby brother.
Karen’s Catholic faith has played a large role in her
work fostering children. She remarks:
It is difficult when a child leaves after being
with them for so long. When a child leaves, a
small part of you leaves with them. You have to
hope that you were there for a child when the
child needed help. When people ask me “Why do
you do it?” I respond that my faith teaches me to
respond “Why not?” I can’t help the whole world,
but I can help one baby at a time.
What would happen if CSS were forced to shut
down its foster care program entirely? Karen has the
following words to share:
This is very frustrating for me. I would like to
continue service... I would like to continue to do
this, but I don’t want to do it without the
support of Catholic Social Services. I am just not

9
too happy with the other agencies out there.
They play by their own book of rules.... My gift is
to take care of these kids – give them a better
start when they come to me and send them back
as strong as they can be.
The last foster child to live in Karen’s home – a
baby girl “born with serious addictions and in need of
a lot of care” – went to live with a relative in late
February 2018. Karen was preparing to receive another
child, but intake at CSS was frozen. “I don’t have any
foster children at home,” Karen says, “I feel lost.”
“Everyone says they don’t recognize me without a baby
in my arms,” remarks Karen.
JAMIE HILL is now 34 years old. CSS placed her into
foster care with Karen Quinn when she was four. “I
know very little about the reasons for being placed into
foster care,” she recalls today. “I know that there was
some abuse and that a significant head injury led me to
being taken from my home.”
But Jamie’s recollection of her life at the Quinns
could not be clearer: “lots of one-on-one time playing
cards or memory games” and “lots of great memories.”
Like many foster children, Jamie struggled as a
child. The early years of abuse had taken their toll.
“Being a foster kid was hard. For 20 years it was really
tough. There were a lot of hard times for me,” she says.
“Growing up in the Quinn’s home I always knew that
I was loved, but it took me a long time to accept that.”
The Quinns adopted Jamie, and when she talks
about them she calls them “Mom and Dad.”

10
Ms. Quinn was particularly attentive to Jamie.
“When my mother saw that I was good at something,
she tried to expose me to anything that would help me
develop that talent.”
As the oldest child in the Quinn home, Jamie grew
up “thinking that it was cool to have the home open for
foster children.” But she also saw first-hand the
damage that unhealthy homes had inflicted on the new
children placed with the Quinns. “You can tell right off
the bat what kind of home a child came from,” she says.
“Lots of [these] kids were not held.”
That changed once they arrived at the Quinns. They
were held and “spoiled” with affection. “Any child that
comes into my parents’ home is receiving a good home,”
Jamie says. “My parents were very accepting of
everyone.”
Thanks to the Quinns’ support, Jamie graduated
from high school, graduated from college and completed
training as a physician’s assistant.
When Jamie married in 2014, Mr. Quinn, a deacon
in their church, suggested he officiate the wedding. But
Jamie insisted that he walk her down the aisle. “It took
a lot for me to get a dad,” she says, “and I wanted him
to be a dad that day.”
That day three of her adopted sisters were among
Jamie’s bridesmaids as well. Today, Jamie and her
husband have two children of their own.
Jamie keeps in touch with one of her biological
sisters. Maintaining this relationship has not been easy
for the two sisters. “Her life did not turn out like mine,”

11
says Jamie. “Sometimes I feel that she is jealous of me
because I got the better home, because I got out
younger than she did.”
Upon learning of the CSS-intake freeze, her first
thought was this: “We are better than this. It is not like
this issue suddenly came up. This has been part of
what the Catholic Church has taught forever. I was
really shocked that the government could force a
religious organization to do something against what
they believe in.”
Even more distressing for Jamie is the freeze’s
impact on the Quinn house. “My mom is waiting for
that call at 3 a.m. in the morning, on the off chance
that someone is going to need her for 3 hours or 3
years.... As I got older, I understood that my mom
believes that being a foster mother is her calling from
God. It is deep in her soul.”
This is one reason Jamie thinks it is important to
“fight the good fight” to keep CSS open. Here’s another:
“I gotta keep fighting for all these other kids so that
they can have the life I had.”
Jamie thinks that “a foster home is the difference
between life and death” for some kids. Jamie knows
that she herself was “on a bad path” because of the
trauma she suffered as a child. Her placement at the
Quinn home was a crossroads. “If you have a good
foster home – one where a parent treats you like their
child -- you can make it. Without one, you can fall
through the cracks.”
“CSS needs to keep open. It saved my life.”

12
WINNIE PERRY thought she would be a foster
mother just over the summer. That was some 40 years
and close to 100 foster children ago.
Ms. Perry first learned about CSS after reading its
request for foster parents in her local newspaper. While
not Catholic herself, Ms. Perry called the agency. Her
mother cared for foster children and Ms. Perry felt
moved to do the same. Of her four decades serving as a
foster parent, Ms. Perry says: “It wasn’t good all the
time. It wasn’t happy times all the time. But it was
worthwhile. It was very rewarding.... I could give kids
something they did not have – a stable home.”
Shardia, came to stay with Ms. Perry when she was
12 years old. According to Ms. Perry, Shardia was “out
of control.” She was not violent, but she was truant.
Shardia stayed with Ms. Perry for three years and the
two have kept in touch since then. Shardia is now in
her 20s living on her own, with a child, and working as
a school bus driver while studying toward a degree.
“After Shardia realized that she did not want to go on
being rebellious,” Ms. Perry says, “she turned her life
around.”
From the start CSS supported the Perrys as foster
parents. Shortly after the Perrys started as foster
parents, the couple had an argument. Mr. Perry called
CSS to pick up the foster children in their care. Rather
than sever ties with the couple, CSS staff worked with
the couple to resolve their conflict and the couple’s
home stayed open for needy children.
CSS staff and case workers have continued their
support over the years. “I have a lot of rules in my

13
house,” says Ms. Perry. “But I would call CSS if
anything happened that I couldn’t handle.” They
arranged for therapists to help with the children. The
kids were always CSS’ first priority, but CSS was
always there for Ms. Perry. “They always supported
me,” she says, “I never felt like I was alone.”
Each child placed in the Perry home became a
member of the family. Ms. Perry says: “We didn’t use
the term ‘foster children’ at home. They are our
children.”
While most children stayed for only a year or so, a
handful has kept ties with Ms. Perry to this day. Two
are Anthony and Adrienne. Both came to the Perrys
straight from the hospital – just days old on arrival.
The Perrys adopted Anthony (now 35 years old) and
Ms. Perry assumed legal custody of Adrienne while
maintaining a close relationship with the girl’s birth
mother (“the best natural mother I ever came in
contact with”).
Ms. Perry understands the importance of the child’s
relationship with his or her biological parents and
knows they should return home to parents or relatives
if that’s possible. “I learned a long time ago my place.
I was not first. The natural parents are first.
Sometimes this hurt a lot.”
Ms. Perry was often called to receive needy children
– “with only the clothes on their backs” – in the early
morning hours. This was the case with siblings James
(3 years) and Julia (8 months). Although she thought
the children were going to stay with her for just a short
time, Ms. Perry ended up adopting the children. James

14
is now nine and Julia is seven, and Ms. Perry keeps
them in touch with their biological grandmother by
arranging for frequent visits.
What would happen if CSS is forced to close its
doors? “It would be a terrible thing,” says Winnie
Perry. “There are so many children out there who need
their help. They help the children and – as much as
they can – the natural parents. They help the foster
parents a lot. They give us so much support.”
ADRIENNE COX came to live with her CSS-certified
foster parent Winnie Perry when she was a newborn.
Dealing with an abusive husband, Adrienne’s mother
thought foster care would be best for her daughter.
Adrienne ended up living her entire childhood at the
Perry home, though the Perrys ensured that she
maintained a close relationship with her biological
mother.
“Ms. Perry had a lot of rules,” but “I learned a lot,”
says Adrienne today. One of the most important
lessons she was taught was that “despite your past, you
can do anything.” All she had to do was “my best in
whatever I started.”
Adrienne’s “best” resulted in graduation from high
school and college as well as a master’s degree. Now a
successful professional, Adrienne appreciates the
nudges she received from her foster mom along the
way. “My mom encouraged me to go to college,” says
Adrienne of Ms. Perry, “even though I did not want to
go at the time.”
As for the now-deceased Mr. Perry, Adrienne’s
connection to him could not have been stronger: “He

15
was my dad. He was everything to me. Many of my
friends growing up did not even know that the Perrys
were not my biological parents.”
Faith was important to the Perrys. “Our home was
a Christian home,” says Adrienne. “We were expected
to go to church and to participate. We were encouraged
to do what is right and do right by others.”
Adrienne did this as a CSS-certified foster parent.
Although she had to convince her initially hesitant
husband, the couple fostered and later adopted their
first two children. Says Adrienne, “I felt that I had to
give what was given to me.”
She credits the way she parents her children to the
Perry’s example. For many foster children, learning to
love is hard. In Adrienne’s experience, it happens only
if “the foster child is considered her foster parents’
child.” “I go out of my way to make sure that my love
for each of my children is clear to them,” she says. “A
child’s ability to love is important. It opens up the door
for the child to receive anything else they need.”
All this explains why the intake freeze at CSS – “my
agency” – is almost unthinkable to Adrienne. She is
speaking up to let people know how valuable CSS has
been in her life – and just how unique the services are
that CSS provides. She has spoken with many former
foster children and thinks that her story “seems
unique.” She thinks CSS expectations and training for
foster parents made her experience so different. In
Adrienne’s opinion, CSS did more than merely arrange
for a safe place for a needy child to live. “CSS gave me
a family,” this one-time foster child now says. “To take

16
away this chance for another child is an injustice.
Everyone needs a family.”
INTRODUCTION AND
SUMMARY OF ARGUMENT
Almost 450,000 children and youth are living in
foster care in the United States today.3 Increasing
numbers of children are coming into the nation’s foster
care as a result of parental drug addiction, particularly
addiction to opioids.4 According to the City of
Philadelphia, its current foster care system includes
over 5,000 children and youth at any given time.5 In
early March 2018, City officials put out an urgent call
for 300 families to provide foster care, citing the
increasing number of children coming into the system
due to the opioid crisis.6

3

U.S. Dep’t of Health and Human Services, Administration for
Children and Families, “The AFCARS Report” available at
https://www.acf.hhs.gov/sites/default/files/cb/afcarsreport25.pdf
(During FY 2017, 442,995 children were in foster care.)
4

U.S. Department of Health and Human Services, Administration
for Children and Families, “Children’s Bureau Express,” Nov.
2016,
Vol.
17,
No.
8.
available
at
https://cbexpress.acf.hhs.gov/index.cfm?event=website.viewArtic
les&issueid=181 &articleid=4855
5

See https://www.phila.gov/services/birth-marriage-lifeevents/become-a-foster-parent/
6

See Terruso, Julia “Philly puts out ‘urgent’ call – 300 families
needed for fostering,” The Philadelphia Inquirer (March 8, 2018)
available at https://www.inquirer.com/philly/news/foster-parentsdhs-philly-child-welfare-adoptions-20180308.html

17
Shortly after the City’s urgent call for foster
families -- and despite decades of successfully
partnering with CSS7 -- City officials told CSS that
they would stop referring children to them unless they
endorsed foster placement with same-sex couples.
Fulton, slip op. at 16. The City’s threat was made even
though not a single same-sex couple had ever
approached CSS seeking to become foster parents. See
Petition for cert. at 1. And City officials persisted
despite CSS' suggestion that it would refer these
couples to another agency, something agencies do for
any number of reasons. Id. at 7.
Unable to keep its doors open under a prolonged
intake freeze8, CSS and several CSS-certified foster
parents sought injunctive relief. Fulton, slip op. at 20.
The district court denied CSS’ request to keep the
status quo and instead upheld Philadelphia's new,
strong-arm policy. Id. at 22. On November 6, 2017, the
court of appeals for the Third Circuit held that the
district court did not abuse its discretion in denying
CSS injunctive relief. Id. at 50. On July 22, 2019, CSS

7

The Catholic Church in Philadelphia has had a long-standing
tradition of caring for children in need. See Fulton, slip op. at 13.
Beginning in the early 1900s, the Catholic Children’s Bureau was
established and staffed by Missionary Sisters of the Blessed
Trinity, early Catholic pioneers in social work in the United States.
Id. Their work continues through the dedicated efforts of CSS
staff.
8

CSS’ foster care program has never been a money-making
operation. It has operated at an economic “loss.” Fulton, slip op. at
14 (observing that the per diem rate for each child placed in a CSSaffiliated foster home “did not cover its full expenses”).

18
and two foster mothers filed a petition for certiorari
with this Court.
Foster care is intended to be a temporary safe haven
until a child can be reunited with his or her family or
a permanent placement can be found. Children enter
foster care because their families of origin are
experiencing difficulties so severe that they cannot take
care of them. These difficulties can include parental
abuse, neglect or abandonment, physical or mental
illness, addiction, incarceration or the risk of death.
Foster parents can help children cope and recover
from the trauma of being removed from their home.
Skilled and nurturing foster parenting makes the
difference between a child’s trauma being exacerbated
or a child’s flourishing and growing. As the American
Academy of Pediatrics has observed:
Virtually all children in foster care have been
abused and/or neglected. While they may have
suffered physical injury, this is often the tip of
the iceberg. Children who have experienced
maltreatment often have developed different
ways of perceiving and reacting to their world,
ways that often prove maladaptive in a more
normal environment. Foster and adoptive
parents who do not understand these differences
risk frustration and may feel resentment as they
struggle to understand and raise their children.
The resulting stress can disrupt placement and

19
eventually lead to unfavorable outcomes for the
children.9
Amici former foster children and foster parents
have voluntarily come forward to publicly share their
experience of the real and lasting positive support that
CSS has given to Philadelphia’s foster care families.
ARGUMENT
I.

CSS CONTRIBUTES TO THE DIVERSITY
OF PHILADELPHIA’S FOSTER FAMILIES

Many aspiring foster parents who have chosen CSS
to help them navigate the difficult process of caring for
a foster child are religious themselves and seek the
encouragement and assistance of people who speak
their language, share their values, and understand
their worldview.
CSS connected amici Wayne Thomas and his foster
mother to the many educational opportunities offered
by the Catholic Church in Philadelphia. While in
middle school, Wayne traveled to Germany as his
parochial school’s representative at World Youth Day.
Wayne “met so many people from all over the world”
and counts many of the people he met on that trip as
his friends today. Thanks to vocational training at
Mercy Catholic High School, Wayne learned skills he
uses in his career today as a HVAC technician.

9

American Academy of Pediatrics, “Helping Foster and Adoptive
Families Cope with Trauma,” at page 2 available at
https://www.aap.org/en-us/advocacy-and-policy/aap-healthinitiatives/healthy-foster-care-america/Documents/Guide.pdf

20
Amici Thomas Paul is similarly thankful for CSS’
role in arranging for the parochial school education he
enjoyed as a child. Fond memories of his time at that
grade school came back to Thomas during a recent
contract he performed resurfacing the concrete
sidewalks surrounding the school.
Amici Karen Quinn first became a foster mother
after reading in her parish’s Sunday bulletin about the
need for foster homes for children in need. Ms. Quinn
considers her Catholic faith as having inspired her
commitment to foster parent for 30 years, and she
wants to continue to care for at-risk children as a CSScertified foster parent. Amici Jamie Hill similarly
observes that her mother’s decision to foster was a
“calling from God.”
Amici Winnie Perry, although not Catholic herself,
never once considered working with an agency other
than CSS. Perry and CSS have been perfect partners
over the past 40 years. One of Ms. Perry’s foster
daughters, amici Adrienne Cox, credits Ms. Perry’s
desire to run a Christian home with this long-lasting
collaboration.
II.

CSS HAS A PROVEN TRACK RECORD OF
RELIABLE FOSTER CARE

CSS has been a trusted resource in Philadelphia for
needy children and foster parents for over a century.
The court of appeals recognized as much when it noted
“the long and constructive relationship between the
parties.” Fulton, slip op. at 13, n. 1. Institutional
experience and a commitment to putting the needs of
children first help make CSS so successful.

21
Amici Wayne Thomas says that his siblings who
were not placed in CSS-certified foster homes had
much different childhoods than his. “They were left
alone. They worried about what they would have to
eat.” But life at his foster mother Meme’s house was
different for Wayne and his brother Sean.
Amici Thomas Paul similarly thinks of “all of the
opportunities” he had growing up thanks to being
placed by CSS in foster care.
Amici foster mother Karen Quinn says that CSS
went “above and beyond” meeting the material needs of
children placed in her home. Her kids received the help
they needed right away – “without being placed on a
waiting list.” Amici foster mother Winnie Perry
similarly notes that CSS staff were there for “anything
I couldn’t handle.”
Amici Adrienne Cox credits CSS with offering
something “unique.” “It must have been something that
they expected of their foster parents or training or
something that made my experience different” from
that experienced by other former foster children she
has known. That’s why, when Adrienne and her
husband chose to become foster parents, they chose
CSS to help them become foster parents. Adrienne’s
connection is so strong that she refers to CSS as “my
agency.”

22
III.

CSS SUPPORTS PERMANENT HOMES
FOR NEEDY CHILDREN

Foster care should offer a child a temporary safe
haven until a permanent placement can be secured.
CSS supports this child-centered goal by considering
foster parents part of the professional team to, when
possible, mentor and support the relationship between
the child and birth family. Such a “team-based case
management approach” with foster parents allows CSS
to constantly assess the continued appropriateness of
temporary placement and explore options for
permanency through return to the birth family,
placement with kin, or adoption.
CSS and Ms. Fulton encouraged amici Wayne
Thomas to maintain a relationship with his biological
parents and siblings. Wayne enjoyed CSS-supervised
visits while his parents were recovering from addiction.
And, when Wayne’s parents stayed clean, Meme
included them in family celebrations at her home.
Long-time CSS-certified foster parent amici Karen
Quinn embraced the goal of connecting foster children
with relatives. She reached out to an out-of-state foster
family so that her foster son Gabriel could visit with
his biological siblings during a family trip. Quinn and
her husband also adopted several of their foster
children when the best permanent home for the child
was the Quinn home.
CSS helped give amici Thomas Paul and his brother
Sean a loving and stable home with the Pauls. Thomas
is proud to be an adopted child in the Paul family.

23
Amici Winnie Perry encouraged the birth mother of
her foster child amici Adrienne Cox to keep ties with
Adrienne and arranges visits with the grandmother of
her former-foster, now-adopted children James and
Julia.
IV.

CSS POLICY DOES NOT INTERFERE
WITH THE INTERESTS OF SAME-SEX
COUPLES

Philadelphia, like other jurisdictions, remains free
to place children with same-sex foster parents. CSS has
never interfered with these efforts. Twenty-nine of the
thirty agencies working with the City are willing to
certify same-sex couples as foster parents. Fulton, slip
op. at 15-16, n. 2. The City can continue to expand its
public outreach arm to promote foster parenting among
same-sex households. It need not coerce CSS into
publicly promoting the City's views or demand as a
condition for placing needy children that CSS alter its
sincerely-held religious beliefs about the nature of
marriage.
V.

THIS
CASE
SIGNIFICANCE

HAS

NATIONAL

This Philadelphia story is not unique. Catholic
foster care and adoption agencies in Washington, D.C.,
Boston, San Francisco, the state of Illinois,10 and

10

United States Conference of Catholic Bishops, “Discrimination
against Catholic Adoption Services,” available at
http://www.usccb.org/issues-and-action/religiousliberty/discrimination-against-catholic-adoption-services.cfm

24
Buffalo, New York11 have closed in the face of similar
ideological pressures. The State of Michigan recently
reached a settlement agreement that requires all
private adoption and foster care agencies to work with
same-sex couples, despite a state law specifically
offering accommodations for faith-based agencies.12 A
former foster care child, foster parents and St. Vincent
Catholic Charities have filed suit seeking relief from
this unlawful and discriminatory agreement.13
Severing ties with programs like these, under the
guise of anti-discrimination laws, is the equivalent of
hanging a “Catholics Need Not Apply” sign outside of
every state and local health and human services
department. Such a policy is odious to the
Constitution’s guarantees of free speech and the free
exercise of religion.

11

After 95 years, NY rules end Catholic adoption and foster services
in Buffalo, Catholic News Agency, Aug. 27, 2018 available at
https://www.catholicnewsagency.com/news/after-95-years-ny-rulesend-catholic-adoption-and-foster-services-in-buffalo-60894
12

See Dumont v. Gordon, No. 2:17-cv-13080-PDB-EAS (E.D. Mich.
2019) (Stipulation of Voluntary Dismissal with Prejudice) available
at https://s3.amazonaws.com/becketnewsite/Dumont-StipulatedDismissal-and-Settlement-Agreement.pdf
13

Buck v. Gordon, No. 1:19-cv-00286 (W.D. Mich.) available at
https://s3.amazonaws.com/becketnewsite/Complaint-in-Buck-v.Gordon.pdf

25
CONCLUSION
For the sake of the many children in need in
Philadelphia, and for those expressed in the petition,
amici request this Court grant the petition for a writ of
certiorari.
Respectfully Submitted,
Andrea Picciotti-Bayer
Counsel of Record
The Catholic Association Foundation
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae

